                                         UNITED STATES
                                 NUCLEAR REGULATORY COMMISSION
                                           WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                         March 15, 2012




MEMORANDUM TO:                  Chairman Jaczko



FROM:                           Hubert T. Bell /RA/
                                Inspector General


SUBJECT:                        MEMORANDUM REPORT: AUDIT OF NRC’S FISCAL YEAR
                                2011 COMPLIANCE WITH THE IMPROPER PAYMENT
                                ELIMINATION AND RECOVERY ACT OF 2010
                                (OIG-12-A-11)


This report reflects the results of the Office of the Inspector General’s (OIG) audit of the
Nuclear Regulatory Commission’s (NRC) fiscal year (FY) 2011 compliance with the Improper
Payment Elimination and Recovery Act of 2010 (IPERA). OIG determined that NRC complied
with the requirements of IPERA.

BACKGROUND

On July 22, 2010, IPERA was signed into law, which amended the Improper Payments
Information Act of 2002 (IPIA) and generally repealed the Recovery Auditing Act. IPERA also
directed the Office of Management and Budget (OMB) to issue implementing guidance to
agencies. IPERA requires Federal agencies to periodically review all programs and activities
that they administer and identify all programs and activities that may be susceptible to
significant improper payments. 1 In addition, IPERA requires each agency to conduct recovery

1
  According to IPERA, an improper payment is (A) any payment that should not have been made or that was
made in an incorrect amount (including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements and (B) includes any payment to an ineligible recipient,
any payment for an ineligible good or service, any duplicate payment, any payment for a good or service not
received (except for such payments where authorized by law), and any payment that does not account for credit
for applicable discounts. IPERA provides a detailed explanation of what is considered a “significant” improper
payment (Section 2 (a)(3)(A)).
         Audit of NRC’s Fiscal Year 2011 Compliance With the Improper Payment Elimination and Recovery Act of 2010




audits2 with respect to each program and activity of the agency that expends $1,000,000 or
more annually, if conducting such audits would be cost-effective. On April 14, 2011, OMB
issued Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB
Circular A-123, as implementing guidance for the requirements of IPERA.

OMB guidance also specifies that each agency’s Inspector General should review agency
improper payment reporting in the agency’s annual Performance and Accountability Report
(PAR) or Annual Financial Report (AFR), and accompanying materials, to determine whether
the agency complied with IPIA, as amended by IPERA.3

According to OMB guidance, compliance with IPIA, as amended by IPERA, means that the
agency has:

          Published a PAR or AFR for the most recent FY and posted that report and any
          accompanying materials required by OMB on the agency Web site.
          Conducted a program specific risk assessment for each program or activity that
          conforms with Section 3321 of Title 31, U.S. Code (if required).
          Published improper payment estimates for all programs and activities identified as
          susceptible to significant improper payments under its risk assessment (if required).
          Published programmatic corrective action plans in the PAR or AFR (if required).
          Published, and has met, annual reduction targets for each program assessed to be at
          risk and measured for improper payments.
          Reported a gross improper payment rate of less than 10 percent for each program and
          activity for which an improper payment estimate was obtained and published in the PAR
          or AFR.
          Reported information on its efforts to recapture improper payments.

OBJECTIVE

The audit objective was to assess NRC's compliance with IPERA and report any material
weaknesses in internal control.

RESULTS

Based on our review of NRC’s FY 2011 PAR and other documentation provided by the
agency, OIG has determined that the agency is in compliance with the requirements of IPERA.


2
    Recovery audits are also referred to as “payment recapture audits.”
3
    Even though IPERA amends IPIA, the authorizing legislation is still named IPIA.
                                                          2
      Audit of NRC’s Fiscal Year 2011 Compliance With the Improper Payment Elimination and Recovery Act of 2010


Additionally, OIG did not identify any instances that would indicate that NRC’s improper
payment reporting is other than accurate and complete.

AGENCY COMMENTS

A draft report was provided to the Chief Financial Officer for comment. No comments were
provided on the report.

SCOPE AND METHODOLOGY

OIG audited agency documents related to NRC’s compliance with IPERA for FY 2011. These
documents included NRC’s FY 2011 PAR, a report on the agency’s assessment on improper
payments, and agency correspondence related to IPERA. By comparing the information in
these documents, OIG assessed the accuracy and completeness of the agency’s reporting on
improper payments.

We conducted our work at NRC headquarters during February 2012 in accordance with
generally accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. The audit work was conducted by Kathleen Stetson, Team Leader; Eric Rivera,
Audit Manager; and Michael Steinberg, Senior Auditor.

If you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector General
for Audits, at 415-5915 or me at 415-5930.



cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      J. Dyer, CFO
      N. Mamish, OEDO
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO




                                                      3
